               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




    Officers’ Travel and Representation
      Expenses for Fiscal Year 2013

                       Audit Report




                                              March 13, 2014

Report Number FT-AR-14-008
                                                                        March 13, 2014

                                                Officers’ Travel and Representation
                                                      Expenses for Fiscal Year 2013

                                                        Report Number FT-AR-14-008



BACKGROUND:
The Postal Reorganization Act of 1970,      Handbook F-15, Travel and Relocation,
as amended, requires annual audits of       which requires that all employees,
the U.S. Postal Service’s financial         including officers, adhere to the General
statements. As part of this process, the    Services Administration’s published
Postal Service Board of Governors           lodging rates or justify why they chose
adopted policies and procedures that        lodging rates that exceeded the
require annual audits of officers’ travel   published rates. The Officers’ Travel
and representation expenses.                and Representation Expense Guidelines
                                            does not reference this portion of
Postal Service officers shape the           Handbook F-15 or otherwise make it
strategic direction of the agency by        clear that officers should adhere to the
setting goals, targets, and indicators      General Services Administration’s rates.
within the Board of Governors’              Rather, officers are directed to “shop
established framework. The Postal           around for the best possible rate.”
Service has classified these officer
positions as Postal Career Executive        We identified 13 of 60 travel
Service II and they include the             reimbursements filed by 11 officers
Postmaster General, deputy postmaster       where lodging costs were between
general, and all vice presidents. The       108 and 239 percent of the published
Board of Governors has authorized 50        General Services Administration's
officer positions.                          lodging rate for the area, totaling about
                                            $1,200 in extra costs.
Our objective was to determine whether
the travel and representation expenses      WHAT THE OIG RECOMMENDED:
Postal Service officers claimed during      We recommended management update
fiscal year (FY) 2013 were properly         officers’ travel guidelines to include the
supported and complied with Postal          requirements of Handbook F-15 to use
Service policies and procedures. During     published General Services
FY 2013, 41 Postal Service officers filed   Administration rates as the maximum
964 travel reimbursements totaling          amount for lodging or document a
about $771,000.                             justification for exceeding the rate.

WHAT THE OIG FOUND:                         Link to review the entire report
Officers’ travel and representation
expenses totaling about $771,000 were
properly supported; however, the
officers did not always comply with
March 13, 2014

MEMORANDUM FOR:             SCOTT G. DAVIS
                            ACTING VICE PRESIDENT, CONTROLLER




FROM:                       John E. Cihota
                            Deputy Assistant Inspector General
                             for Financial and Systems Accountability

SUBJECT:                    Audit Report – Officers’ Travel and Representation
                            Expenses for Fiscal Year 2013
                            (Report Number FT-AR-14-008)

This report presents the results of our audit of the U.S. Postal Service's Officers’ Travel
and Representation Expenses for Fiscal Year 2013 (Project Number 13BG012FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice Millett, director,
Finance, or me at 703-248-2100.

Attachment

cc: Julie S. Moore
    Corporate Audit and Response Management
Officers’ Travel and Representation                                                                                FT-AR-14-008
 Expenses for Fiscal Year 2013




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Officers’ Government Lodging Rates .............................................................................. 2

Recommendation ............................................................................................................ 3

Management’s Comments .............................................................................................. 3

Evaluation of Management’s Comments ......................................................................... 3

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objective, Scope, and Methodology ............................................................................ 4

   Prior Audit Coverage ................................................................................................... 6

Appendix B: Officers’ Government Lodging Rates .......................................................... 7

Appendix C: Management’s Comments .......................................................................... 8
Officers’ Travel and Representation                                                                 FT-AR-14-008
 Expenses for Fiscal Year 2013



Introduction

This report presents the results of our audit of the U.S. Postal Service's Officers’ Travel
and Representation Expenses for fiscal year (FY) 2013 (Project Number
13BG012FT000). We conducted this audit in response to the Board of Governors’
(Board) policies and procedures requiring annual audits of officers’ travel and
representation expenses.1 Our objective was to determine whether the travel and
representation expenses that officers claimed were properly supported and in
compliance with Postal Service policies and procedures.2 See Appendix A for additional
information about this audit.

Postal Service officers shape the strategic direction of the agency by setting goals,
targets, and indicators within the Board-established framework. The Postal Service has
classified officer positions as Postal Career Executive Service II and they include the
Postmaster General, deputy postmaster general, and all vice presidents. The Board has
authorized 50 Postal Service officer positions. At the end of FY 2013, 38 of these 50
positions were active, with 32 filled, four held by acting officers, and two vacant (no one
occupied the positions but they remained open). During FY 2013, 41 Postal Service
officers filed 964 travel reimbursements totaling about $771,000.

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. To comply with this law, the Board adopted
policies and procedures that require annual audits of officers’ travel and representation
expenses. Officers use the Revised Officers’ Travel and Representation Expense
Guidelines (Guidelines) when traveling. The Guidelines require officers to be familiar
with the “Your Responsibilities as a Traveler” section of Handbook F-15.3 This section
requires employees, including officers, to comply with the policies stated in the
handbook.

The Postal Service is not bound by Federal Travel Regulations.4 Title 39, Section 410,
of the United States Code authorizes the Postal Service to establish its own travel
policy. But since the Postal Service has chosen to use the General Services
Administration's (GSA) lodging rates, as detailed in Handbook F-15, officers must use
those rates when on travel.




1
  Representation expenses nearly always involve one or more non-Postal Service employee (suppliers, customers,
and foreign postal administrators) and a Postal Service officer.
2
  We limited the audit universe to reimbursements processed through the Postal Service’s Electronic Travel Voucher
System (eTravel). The eTravel system is the online application used to create work travel expense reports,
electronically submit expense reports to authorized approvers, and track reimbursement status.
3
  Travel and Relocation, Section 2-1, updated through September 2013.
4
  Federal Travel Regulations (41 C.F.R. Chapters 300 through 304) state that an employee is an individual employed
by an agency, regardless of status or rank.
                                                           1
Officers’ Travel and Representation                                                                    FT-AR-14-008
 Expenses for Fiscal Year 2013



Conclusion

Officers’ travel and representation expenses totaling about $771,000 were properly
supported; however, the officers did not always comply with Handbook F-15, which
requires all employees, including officers, to adhere to GSA-published lodging rates.
This requirement was not clearly included in the officers' Guidelines.

We identified 13 of 60 travel reimbursements filed by 11 officers where lodging costs
were between 108 and 239 percent of the published GSA lodging rate for the location,
totaling about $1,200 in extra costs.

Officers’ Government Lodging Rates

Our review of officers' electronic travel reimbursements found instances where officers
did not obtain the GSA lodging rate5 when traveling or, at a minimum, document the
rationale for not obtaining this rate, as required by Handbook F-15. Specifically, we
identified 13 of 60 travel reimbursements where lodging costs were between 108 and
239 percent of the published GSA lodging rate, totaling about $1,200 in excessive
costs. See Appendix B for additional information about the officers’ government lodging
rates.

We also found the officers’ travel Guidelines vague and open to interpretation in
reference to lodging. The Guidelines say officers should be familiar with Section 2-1 of
Handbook F-15, which discusses travelers' responsibilities and requires employees,
including officers, to comply with all of the handbook policies.6 However, the lodging
section of the Guidelines only advises officers to shop around for the best possible
lodging rate,7 and refers officers to Section 6 of Handbook F-15, which states a diligent
effort must be made to obtain lodging at a reasonable rate. The Guidelines do not
include or reference Sections 4 and 5 of Handbook F-15, which require travelers to
obtain the government rate for lodging, and obtain prior approval from an approving
official and document justification for nightly rates over the GSA rate.8

The Postal Service's travel management specialists provided current GSA rates to all
officers and their administrative assistants at the beginning of the fiscal year, and the
eTravel home page on the Postal Service’s intranet directs travelers, including officers,
to the GSA lodging rates.

Additionally, for comparison purposes only, we evaluated federal government travel
policy – including the policy for senior executive-level employees − to determine lodging
requirements. We found that, regardless of status or rank, all federal employees must
adhere to the GSA rates for lodging. Although the Postal Service is not bound by federal

5
  Government rate is synonymous with GSA rate.
6
  Section 2-1, “Your Responsibilities as a Traveler.”
7
  Revised Officers’ Travel and Representation Expense Guidelines, Lodging (page 5), dated July 2011.
8
  Sections 4-1.1.2 and 5-1.1.3.2, respectively, dated September 2013.


                                                        2
Officers’ Travel and Representation                                                                FT-AR-14-008
 Expenses for Fiscal Year 2013


travel regulations, it has chosen to follow the GSA rates by incorporating that
requirement in Handbook F-15.

The U.S. Postal Service Office of Inspector General (OIG) reported a similar issue
regarding all Postal Service employees, including officers, in FY 20119 and FY 2009.10
The OIG recommended incorporating requirements to flag lodging rates that exceed
prevailing government rates and requiring advance approval for those rates and
documentation of that approval. Management agreed with the recommendation and
planned to incorporate changes into its requirements for the new eTravel system.11

Recommendation

We recommend the vice president, Controller:

1. Update the Officers’ Travel and Representation Expense Guidelines to clarify that
   officers must adhere to the requirements of Handbook F-15, Travel and Relocation,
   by:

       Using the published U.S. General Services Administration (GSA) rates as the
        maximum amount for lodging for all employees.

       When applicable, documenting justifications for exceeding the GSA lodging
        rates.

Management’s Comments

Management agreed with our findings and the intent of the recommendation.
Management will update the Officers’ Travel and Representation Expense Guidelines to
instruct officers to follow published GSA rates as the maximum for lodging and provide
justification when exceeding the rate. Completion of the update is expected by May 31,
2014.

See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
their actions should resolve the issues identified in the report.




9
  Compliance With Travel Policies and Opportunities for Cost Savings (Report Number FF-AR-11-007, dated
February 9, 2011).
10
   Electronic Travel Voucher System Controls (Report Number IS-AR-09-001, dated October 8, 2008).
11
   The last update to eTravel was July 25, 2012 (after we issued Report Number FF-AR-11-007). The update states
that receipts must be submitted electronically.


                                                        3
Officers’ Travel and Representation                                                                 FT-AR-14-008
 Expenses for Fiscal Year 2013



                                Appendix A: Additional Information

Background

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. To comply with this law, the Board adopted
policies and procedures that require annual audits of officers’ travel and representation
expenses.

Postal Service officers shape the strategic direction of the agency by setting goals,
targets, and indicators within the Board-established framework. The Postal Service has
classified officer positions as Postal Career Executive Service II, and they include the
Postmaster General, deputy postmaster general, and all vice presidents. The Board
authorized 50 Postal Service officer positions; however, only 38 officer positions were
active as of September 30, 2013.

Officers are reimbursed for actual transportation and lodging expenses incurred while
on official travel. In addition, they receive a per diem amount based on GSA per diem
rates.12 Officers are also reimbursed for representation expenses13 incurred when they
conduct official business with customers, industries, or employee groups that work with
the Postal Service. Agency policy requires officers to claim reimbursement for all travel
and representation expenses through the eTravel system.

Objective, Scope, and Methodology

Our objective was to determine whether travel and representation expenses claimed by
Postal Service officers during FY 2013 were properly supported and in compliance with
Postal Service policies and procedures. To achieve this objective, we judgmentally
sampled and reviewed 60 reimbursements, totaling about $84,000.14 We reviewed a
minimum of 15 travel reimbursements each quarter for existing or acting officers (out of
a universe of 964 claims) totaling about $771,000. We used the following as our criteria
to evaluate reported expenses:

    Revised Officers’ Travel and Representation Expense Guidelines issued by the
     Postmaster General on April 13, 2009, and revised on July 29, 2011.

    Handbook F-15, updated with Postal Bulletin revisions through September 2013.

    Management Instruction FM-640-2008-1, Expenses for Internal and External Events,
     dated September 10, 2008.



12
   Per diem covers all meals, dry cleaning, skycap/bellhop tips, newspapers, and other incidentals.
13
   Cost of meals.
14
   We included at least one reimbursement for each officer and all reimbursements of $7,000 and above.


                                                        4
Officers’ Travel and Representation                                           FT-AR-14-008
 Expenses for Fiscal Year 2013


We conducted this performance audit from December 2012 through March 2014 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Our tests of controls were limited
to those necessary to achieve our audit objective. Our procedures were not designed to
provide assurance on internal controls. Consequently, we do not provide an opinion on
such controls. Also, our audit does not provide absolute assurance of the absence of
fraud or illegal acts, due to the nature of evidence and the characteristics of such
activities. We discussed our observations and conclusions with management on
February 4, 2014, and included its comments where appropriate.

We relied on computer-generated data from the Accounting Data Mart (ADM) and
eTravel. We assessed the reliability of these systems’ data by tracing the 60 travel
reimbursement amounts claimed in eTravel to the data in the ADM. Moreover, we
verified the travel reimbursement amounts were posted to the appropriate general
ledger accounts in ADM. We determined the data were sufficiently reliable for the
purposes of this report.




                                            5
Officers’ Travel and Representation                                          FT-AR-14-008
 Expenses for Fiscal Year 2013


Prior Audit Coverage

                                                           Final         Monetary
                                                          Report          Impact
            Report Title            Report Number          Date
  Officers’ Travel and               FT-AR-13-004       12/11/2012         None
  Representation Expenses
  for Fiscal Year 2012
  Report Results:
  Based on the sample results, officers’ travel and representation expenses totaling
  about $806,000 were properly supported and complied with Postal Service policies
  and procedures. We made no recommendations.

  Officers’ Travel and                 FT-AR-12-008        12/19/2011        None
  Representation Expenses
  for Fiscal Year 2011
  Report Results:
  Officers’ travel and representation expenses totaling about $700,000 were
  supported; however, officers did not always comply with Officers’ Travel and
  Representation Expense Guidelines when claiming expenses incurred during
  official travel and representation. Due to several staff changes management made
  that impacted the oversight of the officers’ reimbursement process through FY
  2011, revision of the Guidelines in July 2011, and management’s plan to train
  officers and their administrative assistants on the new Guidelines by the end of FY
  2012, we made no recommendations.




                                           6
Officers’ Travel and Representation                                                                                               FT-AR-14-008
 Expenses for Fiscal Year 2013


                                               Appendix B: Officers’ Government Lodging Rates
            15                                                                                                                        16
Quarter           Officer            City           State       Hotel Rate       Days      Month/Year       GSA Rate   $ Difference        % of Overage
       1             A            New York            NY           $379               2     Oct. 2012           $295       $168               128%
       1             B            Palo Alto           CA           $289               1     Oct. 2012           $121       $168               239%
       1             B         San Francisco          CA           $229               1     Oct. 2012           $184        $45               124%
       1             C           San Diego            CA           $169               6     Nov. 2012           $133       $216               127%
       2             D             Tampa              FL           $140               2     Jan. 2013           $112        $56               125%
       2             E           Clearwater           FL           $195               1     Feb. 2013           $112        $83               174%
       3             F             Tampa              FL           $179               1     Feb. 2013           $112        $67               160%
       3             F           Clearwater           FL           $195               1     Feb. 2013           $112        $83               174%
       4             G           Greensboro          NC             $86               2    Sept. 2013           $77         $18               112%
       4             H             Addison            IL            $99               1     Aug. 2013           $92          $7               108%
       4              I         Philadelphia          PA           $189               2     July 2013           $137       $104               138%
       4             J             Sterling           AK           $130               3     July 2013           $110        $60               118%
       4             K            New York            NY           $239               2     July 2013           $216        $46               111%
Source: OIG review based on officers’ travel reimbursements for FY 2013.




15
     This column represents the actual quarter the travel reimbursement was processed.
16
     This column represents the difference between the “Hotel Rate” and “GSA Rate,” multiplied by the “Days.”

                                                                                  7
Officers’ Travel and Representation                             FT-AR-14-008
 Expenses for Fiscal Year 2013


                            Appendix C: Management’s Comments




                                            8
Officers’ Travel and Representation       FT-AR-14-008
 Expenses for Fiscal Year 2013




                                      9
